U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Anthony W. Knights v. United States, No. 21-198
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 6,
2021, and placed on the docket on August 11, 2021. The government’s response is now due, after
one extension, on October 12, 2021. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including November 12, 2021, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0198
KNIGHTS, ANTHONY W.
USA

DEBORAH N. ARCHER
CENTER ON RACE, INEQUALITY, AND THE
LAW NEW YORK UNIVERSITY SCHOOL OF
LAW
139 MACDOUGAL STREET, 419 O
NEW YORK, NY 10012
215-983-7462
DEBORAH.ARCHER@NYU.EDU
ADEEL M. BASHIR
RESEARCH AND WRITING ATTORNEY
400 N. TAMPA STREET
SUITE 2700
TAMPA, FL 33602
813-228-2715
ADEEL_BASHIR@FD.ORG
813-228-2562(Fax)
ALIZA HOCHMAN BLOOM
NEW ENGLAND SCHOOL OF LAW
154 STUART STREET
BOSTON, MA 02116
781-710-9741
ALIZA.HOCHMAN@AYA.YALE.EDU
YAIRA DUBIN
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10036
212-728-5946

JEFFREY L. FISHER
STANFORD LAW SCHOOL
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-7081
JLFISHER@LAW.STANFORD.EDU
BRADLEY N. GARCIA
O'MELVENY & MYERS LLP
1625 EYE STREET, NW
WASHINGTON, DC 20006-4061
202-383-5160
BGARCIA@OMM.COM

